                                                                Issue Date
                                                                         May 17, 2011
                                                                Audit Report Number
                                                                             2011-LA-1010




TO:         William Vasquez, Director, Los Angeles Office of Community Planning and
            Development, 9DD



FROM:       Tanya E. Schulze, Regional Inspector General for Audit, Region IX, 9DGA

SUBJECT: People Assisting the Homeless, Los Angeles, CA, Did Not Always Ensure That
         Homelessness Prevention and Rapid Re-Housing Funds Were Used To Assist
         Eligible and Supported Participants

                                   HIGHLIGHTS

 What We Audited and Why

      We audited the Homelessness Prevention and Rapid Re-Housing Program (HPRP) of
      People Assisting the Homeless (PATH) and three of its subgrantees based on the results
      of a separate audit of the City of Los Angeles Housing Department (Department). HPRP
      is part of the American Recovery and Reinvestment Act of 2009 (Recovery Act), and
      auditing the Recovery Act program is part of the U.S. Department of Housing and Urban
      Development (HUD), Office of Inspector General’s (OIG) audit priorities. Our overall
      audit objective was to determine whether PATH administered its HPRP in accordance
      with the Recovery Act and other requirements.

 What We Found


      PATH did not always administer its HPRP in accordance with the Recovery Act and
      other requirements. We reviewed 30 participant files and determined that PATH and its
      subgrantees approved HPRP assistance for 4 ineligible participants and 13 participants
     whose eligibility was not supported. In addition, 18 of the 30 participant files had other
     miscellaneous deficiencies such as missing staff affidavit forms and missing participant
     household identification documents. As a result, we questioned the use of $29,214 in
     HPRP assistance provided to these participants.

What We Recommend


     We recommend that the Director of the Los Angeles Office of Community Planning and
     Development require PATH to (1) reimburse its HPRP $8,210 from non-Federal funds
     for 4 ineligible participants; (2) provide supporting documentation for 13 participants
     lacking adequate documentation or reimburse its HPRP $21,004 from non-Federal funds;
     (3) establish and implement sufficient HPRP eligibility and documentation policies and
     procedures for income determination, homelessness, financial resources, support
     networks, participant recertification, and subsequent housing options; (4) develop and
     implement procedures to ensure that its subgrantees verify and document participant
     eligibility in accordance with HPRP requirements; (5) ensure that staff affidavit forms are
     maintained in each participant file for each person determining eligibility and are signed
     by a supervisor; and (6) ensure that it follows its own internal policies when determining
     HPRP eligibility.

     For each recommendation without a management decision, please respond and provide
     status reports in accordance with HUD Handbook 2000.06, REV-3. Please furnish us
     copies of any correspondence or directives issued because of the audit.

Auditee’s Response


     We provided a draft report to PATH and the Department on April 7, 2011, and held an
     exit conference with PATH and the Department officials on April 8, 2011. PATH and
     the Department provided written comments on April 15, 2011. PATH generally
     disagreed with our report recommendations.

     The complete text of the auditee’s response, along with our evaluation of that response,
     can be found in appendix B of this report. The auditee also provided additional
     documentation related to the eligibility of the participants we questioned. We did not
     include this in the report because it was too voluminous; however, it is available upon
     request.




                                              2
                             TABLE OF CONTENTS

Background and Objective                                                    4

Results of Audit

   Finding: PATH Assisted Ineligible and Unsupported Participants           6

Scope and Methodology                                                       13

Internal Controls                                                           15

Appendixes
   A.   Schedule of Questioned Costs                                        16
   B.   Auditee Comments and OIG’s Evaluation                               17
   C.   Criteria                                                            28
   D.   Table of Eligibility Determination and Documentation Deficiencies   33
   E.   Table of Miscellaneous Deficiencies                                 36




                                              3
                       BACKGROUND AND OBJECTIVE

The American Recovery and Reinvestment Act

The Homelessness Prevention and Rapid Re-Housing Program (HPRP) is a new program under
the U.S. Department of Housing and Urban Development’s (HUD) Office of Community
Planning and Development. It was funded under the American Recovery and Reinvestment Act
of 2009 (Recovery Act) on February 17, 2009. Congress has designated $1.5 billion for
communities to provide financial assistance and services to either prevent individuals and
families from becoming homeless or help those who are experiencing homelessness to be
quickly rehoused and stabilized. HPRP funding was distributed based on the formula used for
the Emergency Shelter Grant program.

The Homelessness Prevention and Rapid Re-Housing Program

The purpose of HPRP is to provide homelessness prevention assistance to households that would
otherwise become homeless, many due to the economic crisis, and to provide assistance to
rapidly rehouse persons who are homeless as defined by Section 103 of the McKinney-Vento
Homeless Assistance Act (42 U.S.C. (United States Code) 11302). HPRP provides temporary
financial assistance and housing relocation and stabilization services to individuals and families
that are homeless or would be homeless but for this assistance.

City of Los Angeles Housing Department

HUD awarded the City of Los Angeles Housing Department (Department) an HPRP grant in the
amount of $29.4 million. The Department entered into a contract for more than $28.8 million
with the Los Angeles Homeless Service Authority (Authority) to manage its HPRP program as
the lead agency. The Department also allocated $9.5 million to the Housing Authority of the
City of Los Angeles (Housing Authority) to inspect the habitability of housing units, ensure rent
reasonableness of the units, and process HPRP assistance payments to eligible participants. The
HPRP funds we reviewed were part of this allocation.

People Assisting the Homeless

People Assisting the Homeless (PATH) is a nonprofit community organization, the mission of
which is to break the cycle of homelessness by empowering homeless people with the tools for
self-sufficiency. PATH works toward this goal by providing services that help homeless people
find work, save money, secure housing, and empower their lives. The Authority awarded
awarded PATH more than $2 million to administer its HPRP through its regional coordination
and vehicular outreach components. Under HPRP, PATH provides case management and one-
time financial assistance for rental, security, and utility deposits for the homeless and those at
risk of homelessness in Los Angeles, CA. On October 22, 2009, PATH entered into
memorandums of agreement with four nonprofit organizations to carry out the program. The
four nonprofit organizations were St. Joseph Center (St. Joseph), Gateways Hospital and Mental


                                                4
Health Center(Gateways), Weingart Center Association, Inc. (Weingart), and Public Counsel
Law Center 1 (Law Center).

Audit Objective

Our overall audit objective was to determine whether PATH administered its HPRP in
accordance with the Recovery Act and other requirements. The focus of our review was to
determine whether PATH followed eligibility and documentation requirements when it approved
participants for HPRP assistance. The audit originated based on the results of a separate audit of
the Department. 2 Our audit of the Department found that its policies and procedures were not
adequate to ensure that its subgrantees fully complied with HPRP requirements with regard to
ensuring that adequate documentation was maintained. We concluded that two audits of the
Department subgrantees were warranted due to concerns about expenditure eligibility. This is
the second of the two audits.




1
  The Law Center is not responsible for determining participant eligibility; therefore, participant case files were not
reviewed for this subgrantee. We only reviewed participant case files for PATH, St. Joseph, Gateways, and
Weingart.
2
  Audit Report 2011-LA-1001, Los Angeles Housing Department (October 25, 2010)


                                                           5
                                 RESULTS OF AUDIT

Finding: PATH Assisted Ineligible and Unsupported Participants
PATH approved HPRP services for ineligible participants and participants whose eligibility was
not supported. In addition, 18 participant files contained other miscellaneous deficiencies such
as missing staff affidavit forms and missing participant household identification documents.
These conditions occurred because PATH and its subgrantees did not fully understand HPRP
requirements and did not have adequate written policies and procedures in place to ensure
compliance with HPRP requirements. Consequently, PATH approved $29,214 in financial
assistance for 4 ineligible participants ($8,210) and 13 other participants ($21,004) for whom
eligibility was not fully supported. If PATH cannot provide support for the unsupported
participants, these funds were not available to other eligible participants, and PATH did not fully
maximize the effectiveness of the program.



 Four Participants Were Not
 Eligible for the Program


       We reviewed 30 case files and found that PATH and its subgrantee, St. Joseph, approved
       HPRP assistance for 4 ineligible participants. The specific deficiencies identified for the
       four participants are shown in appendix D. Examples of the deficiencies are discussed
       below.

       Case 1 (Participant #1603563)

       Contrary to the Authority’s asset determination guidance, which states that a participant
       with more than $10,000 in liquid assets is ineligible for HPRP, PATH and St. Joseph
       approved HPRP assistance to participant #1603563 without carefully assessing her
       eligibility. The participant file contained a Social Security benefit notice, dated March 6,
       2010, that supported the participant’s $43 in monthly Supplemental Security Income. St.
       Joseph used this amount when determining whether the participant was income eligible.
       However, it failed to evaluate the second half of the benefit notice, which stated that the
       participant was due back Supplemental Security Income payments with a final
       installment payment of more than $10,000 that would be sent to her bank or other
       financial institution no later than March 12, 2010. The participant’s bank statement for
       this period was not maintained in the case file, and it was not requested or assessed by St.
       Joseph or PATH.

       After questioning St. Joseph about the additional Supplemental Security Income, PATH
       provided us with the third page of the participant’s bank statement for the period April 9
       through May 10, 2010. St. Joseph stated that the participant did not have assets


                                                 6
exceeding the eligibility limit at the time of program entry; therefore, the participant was
eligible for assistance. Although the statement reflected an ending balance of $310 on
April 16, 2010, 1 day after the participant entered the program, that balance increased
considerably just 10 days later on April 26, 2010. The statement showed that the
participant deposited a significant amount of funds into her bank account, increasing her
ending balance to more than $7,000. However, the participant disclosed a monthly
income of just $768 on her application. Therefore, it is not clear whether more than
$7,000 in deposited funds represented a portion of the Supplemental Security Income or
another source of income that the participant failed to disclose.

The participant had a Veterans Affairs Supportive Housing voucher and was assisted with
$2,190 in HPRP funds for her security deposit. Based on a home visit nearly 2 months
after intake, the case manager observed that the participant had purchased new furniture
(a sofa bed, end tables, a bed, a dresser, and a living room table), installed a security gate
to replace the front screen door, and purchased a used car for $2,300. The case
manager’s notes stated that the participant had $2,000 of more than $15,000 in
Supplemental Security Income left after her purchases. It appeared that the participant
had the financial resources to pay for the security deposit at program entry and was,
therefore, ineligible for HPRP.

Case 2 (Participant #1587937)

This participant’s household income of $35,286 exceeded 50 percent of the county’s area
median income of $27,750 for a one-member household in 2009 by $7,536. St. Joseph
miscalculated the income because the participant did not disclose additional income at
program entry and it failed to perform an assessment of the participant’s checking
account balances. St. Joseph determined the participant’s income to be $1,487 per month
based on monthly income of $1,268 from Social Security and $219 from the U.S.
Department of Veterans Affairs (VA), which the participant disclosed and supported with
a Social Security benefit notice and bank statements for a period of 3 months. However,
St. Joseph determined the Social Security income incorrectly. The benefit notice showed
a monthly amount of $1,414 before deductions. This amount should have been used in
arriving at her monthly income instead of the $1,268. Nearly a year after the participant
entered the program, St. Joseph obtained a VA benefit notice, which it interpreted as an
increase in the $219 VA income to $637. However, the benefit notice did not mention an
increase in the participant’s benefits. Rather, it stated that the participant had been
receiving $637 in VA monthly disability compensation since December 1, 2008.
Therefore, the participant was receiving $219 in VA income and $637 in monthly
disability compensation. The $637 in monthly disability compensation should have been
included when calculating the participant’s income.

A review of 3 months of the participant’s bank statements showed sporadic cash and
check deposits of as much as $910 that were unaccounted for. For instance, the
September 2009 bank statement had a beginning balance of 30 cents, total deposits of
$3,704, total withdrawals of $3,702, and an ending balance of $3. It also showed the two
deposits the participant had disclosed to PATH of $1,268 from Social Security and $219

                                          7
from the VA. However, the remaining deposits totaling $2,217 were from an
unidentified source. There was nothing in the case file that detailed the source of the
participant’s additional deposits. St. Joseph noted that the participant worked at odd jobs
selling her arts and crafts to make extra income; however, it did not indicate how much
she received or document attempts to question the participant about the additional
income. With the exception of highlighting the Social Security and VA income that the
participant disclosed, St. Joseph did not appear to have assessed other transactions on the
bank statements. Since the sum of the deposits on the November 2009 bank statement
was the lowest amount of the three bank statements, we used that month’s deposits to
estimate that the participant received an additional $670, the difference between the total
amount of deposits of $1,938 and the $1,268 in Social Security income. This additional
monthly income was not considered, and it should have been included in the income
calculation.

The participant’s file contained one other instance of noncompliance. St. Joseph did not
sufficiently document participant homelessness at the time of intake. It did not include
documentation in the file showing that the participant resided with friends immediately
before entering the program. St. Joseph did not attempt to obtain a copy of the eviction
letter until nearly 3 months after the participant entered the program and nearly 2 months
after the participant was housed. The eviction letter on file was dated and obtained 1 day
before the participant exited the program. The participant file also did not contain a lease
or other written occupancy agreement for the person with whom the participant resided.
Instead, a gas bill was obtained; however, it was from a period nearly a year after the
participant was housed. Therefore, it did not appear that St. Joseph assessed the
participant’s homelessness at the time of intake or when HPRP assistance was provided.

Case 3 (Participant #1595684)

The participant file contained inadequate and inconsistent documentation of
homelessness. The self-declaration of homeless status form indicated that the participant
and her household members were being evicted from housing and would be required to
leave within the next 7 days. This document was signed on March 3, 2010. However,
the participant entered into a lease that was executed on February 19, 2010, for a 1-year
term. The Housing Authority confirmed that it paid the participant’s Section 8 voucher
beginning February 19, 2010. Therefore, the participant falsely certified that she was
homeless or at risk of homelessness when she entered HPRP.

PATH was also unable to demonstrate that participant #1595684 did not have other
subsequent housing options and lacked support networks to obtain immediate housing or
remain in existing housing. In general, PATH and its subgrantees used the HUD
minimum eligibility criteria prescreening tool to document that “no appropriate
subsequent housing options for the household have been identified; the household lacks
the financial resources and support networks to obtain immediate housing.” In this
instance, however, the prescreening tool was signed by PATH almost a month before the
participant entered the program. PATH told us that it made a few copies of the presigned
and predated tool and provided them to the participants for their signature at program

                                         8
     entry. This exact presigned and predated tool was in the case file of participant
     #1545724, whose eligibility assessment was also questioned. As a result, it did not
     appear as though the participant’s housing status and circumstances were adequately
     evaluated by PATH at intake; therefore, the document was invalid. There was no other
     documentation in the file to show that the participant did not have other subsequent
     housing options and lacked support networks to obtain immediate housing or remain in
     existing housing.

PATH and Its Subgrantees Did
Not Adequately Support
13Participants’ Eligibility

     PATH approved payment for HPRP services totaling $21,004 for 13 participants whose
     HPRP eligibility was not supported due to one or more mutually exclusive documentation
     deficiencies. Specifically, 13 participant files did not include proper documentation of
     the participant’s lack of financial resources, 5 participant files did not include proper
     documentation of the participants’ homelessness or risk of homelessness, 4 did not
     document the participant’s lack of support networks, and 1 did not document the
     participant’s lack of other subsequent housing options. Further, PATH failed to recertify
     the eligibility of one participant that received medium-term rental assistance lasting
     longer than 3 months. After we informed PATH of this deficiency, it obtained the
     income documentation and recertified the participant in accordance with HPRP
     requirements. PATH also did not conduct participant income determinations in
     accordance with HPRP requirements for 17 of 30 files reviewed. The specific
     deficiencies identified for each of the 13 participants are shown in appendix D. Some
     examples of these deficiencies are discussed below.

     Case 1 (Participant #1597817)

     PATH subgrantee, St. Joseph, did not properly document the participant’s lack of
     financial resources to obtain other appropriate subsequent housing or remain in existing
     housing. Although the referral form showed that the participant had a savings account
     balance, the file did not include bank statements or a review of account balances. As a
     result, St. Joseph and PATH approved $1,690 in HPRP assistance to a participant whose
     eligibility was not supported.

     Case 2 (Participant #1601323)

     PATH subgrantee, Weingart, did not properly calculate participant #1601323’s annual
     income. Weingart computed the participant’s annual income based on an incorrect $16
     per hour rate per week instead of the $14.50 per hour rate that was supported by the
     participant’s pay stubs. If Weingart had calculated the participant’s income using the
     incorrect rate of $16 per hour, the participant’s income calculation would have exceeded
     50 percent of the county’s area median income of $31,700 for a two-member household



                                             9
     by $1,580 ($16 X 40 hours X 52 weeks = $33,280). Weingart was unable to explain how
     it had calculated the income based on the $16 per hour rate. Although Weingart used the
     incorrect hourly rate and miscalculated the participant’s income, it did not impact the
     participant’s income eligibility for HPRP.

     Weingart did not properly document the participant’s lack of financial resources to obtain
     other appropriate subsequent housing or remain in existing housing. The file did not
     include the bank statements or a review of the account balances, although the referral
     form showed that the participant disclosed that he had a savings account and the progress
     notes stated, “bank statements provided to reflect income.” As a result, Weingart and
     PATH approved $1,350 in HPRP assistance to a participant whose eligibility was not
     supported.

     Case 3 (Participant #1612984)

     St. Joseph did not properly calculate participant #1612984’s annual income. It computed
     the participant’s annual income of $15,960 on the service summary form based on
     employment and child support payments. However, based on supporting documentation
     included in the file, we determined the participant’s annual income to be $18,407.
     Although St. Joseph miscalculated the participant’s income, it did not affect the
     participant’s income eligibility for HPRP.

     St. Joseph did not properly document the participant’s lack of financial resources to
     obtain other appropriate subsequent housing or remain in existing housing. The file did
     not include a review of the participant’s bank account even though the client file
     contained an income summary showing direct deposits into an account were made for all
     child support payments. Although St. Joseph and PATH did not obtain sufficient
     documentation to support the participant’s eligibility for the program, it approved $3,458
     in HPRP assistance for this participant.

Miscellaneous Deficiencies



     In addition to the missing eligibility documentation, we identified miscellaneous
     deficiencies with respect to 18 files that did not directly affect the participants’ HPRP
     eligibility. The specific deficiencies for each of the 18 participants are shown in
     appendix D.

        •   Two participants did not disclose additional income at intake. As a result, PATH
            and its subgrantees failed to take into account additional income when
            determining whether the participant was at or below 50 percent of the county’s
            area median income. In one of the instances, the participant’s income exceeded
            the county’s area median income, and, therefore, the participant was ineligible to
            receive HPRP funding (see case 2 (participant #1587937) above). In the second
            instance, the participant was still income eligible for HPRP.

                                              10
           •   The staff certification of eligibility for HPRP assistance must be maintained in
               each HPRP participant’s file and must be completed and signed by the person
               determining eligibility and his or her supervisor. Of the 30 files reviewed, 12 files
               were missing the required staff affidavit forms, and 2 files were missing the
               supervisors’ signatures on the staff affidavit forms.

           •   According to PATH’s internal policies, a copy of an identification card, Social
               Security card, or birth certificate for the household members must be maintained
               in the files. Of the 30 files reviewed, 3 files were missing one form of
               documentation for a household member.

           •   Participant #1613775’s employment verification appeared to have been
               misrepresented. The signature of the participant’s employer did not match the
               signature on the checks that were issued by the same employer. Also, the name of
               the participant’s employer was misspelled on the employment verification form.
               The documentation was provided by another agency, on which PATH and
               Gateways relied.

           •   Two participants executed lease agreements before entry into HPRP. In both
               instances, the participants were not homeless or at risk of becoming homeless
               immediately before entering HPRP and were, therefore, ineligible (see case 3
               (participant #1595684) above).

Conclusion



     PATH approved $29,214 in assistance for 4 ineligible participants and 13 participants for
     whom eligibility was not adequately supported. In addition, 18 participant files had
     miscellaneous deficiencies such as missing staff affidavit forms and missing participant
     household identification documents. We attribute the deficiencies to PATH’s and its
     subgrantees’ lack of understanding of HPRP requirements and failure to develop and
     implement sufficient written policies, procedures, and controls. These funds could have
     been made available to other eligible participants and helped maximize the effectiveness
     of the program.


Recommendations



     We recommend that the Director of the HUD Los Angeles Office of Community
     Planning and Development require PATH to

     1A.       Reimburse $8,210 to HPRP from non-Federal funds for the four ineligible
               participants whose income exceeded HUD’s limitations.

                                                11
1B.   Provide supporting documentation for the eligibility of 13 HPRP participants
      listed as unsupported in appendix D or reimburse HPRP $21,004 for participants
      lacking adequate documentation from non-Federal funds and determine and
      reimburse amounts that have been spent since our review for these participants.

1C.   Establish and implement policies, procedures, and controls to ensure that it
      sufficiently documents that HPRP applicants lack financial resources to obtain
      immediate housing or remain in their existing housing, including obtaining bank
      statements or documenting that the participant does not have a bank account.

1D    Establish and implement policies, procedures, and controls to ensure that it
      sufficiently documents the homelessness or risk of homelessness of HPRP
      applicants.

1E.   Establish and implement policies, procedures, and controls to ensure that it
      sufficiently documents that HPRP applicants do not have other subsequent
      housing options.

1F.   Establish and implement policies, procedures, and controls to ensure that it
      sufficiently documents that HPRP applicants lack support networks to obtain
      immediate housing or remain in their existing housing.

1G.   Establish and implement policies, procedures, and controls to ensure that it
      determines household income in accordance with HPRP requirements.

1H.   Implement procedures and controls to ensure that it recertifies participants that
      receive more than 3 months of medium-term rental assistance.

1I.   Develop and implement procedures to ensure that its subgrantees verify and
      document participant eligibility in accordance with HPRP requirements.

1J.   Ensure that a staff affidavit form is maintained in each participant file by the
      person determining eligibility for all households determined eligible or recertified
      and that his or her supervisor has signed the form.

1K.   Ensure that it follows its own internal policies and procedures by maintaining
      household identification cards, Social Security cards, and/or birth certificates in
      the participant file when determining HPRP eligibility.




                                       12
                         SCOPE AND METHODOLOGY

We performed our onsite audit work from November 2010 to March 2011 at PATH’s facility
located in Los Angeles, CA. The audit generally covered the period September 15, 2009, to
November 30, 2010. We expanded our audit period as necessary.

To accomplish our audit objective, we

   •   Interviewed HUD, PATH, and subgrantee staff;

   •   Reviewed the contracts between PATH and the Authority;

   •   Reviewed the memorandum of understanding between PATH and its subgrantees;

   •   Reviewed applicable HUD requirements, including the Recovery Act; the revised HPRP
       notice, with an effective date of March 19, 2009; and the HRPP Eligibility Determination
       and Documentation Guidance, revised March 17, 2010;

   •   Reviewed PATH’s, St. Joseph’s, Weingart’s, and Gateways’ written HPRP policies and
       procedures, when applicable, to determine compliance with HPRP regulations;

   •   Reviewed the programmatic and fiscal monitoring reports of PATH conducted by the
       Authority;

   •   Reviewed the programmatic and fiscal monitoring reports of St. Joseph, Weingart, and
       Gateways conducted by PATH;

   •   Reviewed the organizational chart for the Department;

   •   Reviewed PATH’s, St. Joseph’s, Weingart’s, and Gateways’ audited financial statements
       for fiscal years 2009 and/or 2010; and

   •   Reviewed the confirmation of payment reports and lease agreements obtained from the
       Housing Authority.

We selected 30 participant files for review based on a random number generator. Our universe
was limited to 216 participants who were approved by PATH to receive HPRP financial
assistance (rental, security deposit payments, and utility payments) through its rapid rehousing,
prevention, or vehicular outreach components of the program. The 216 participants in our
universe received $391,334 in HPRP financial assistance.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit


                                                13
objective. We believe that evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.




                                               14
                               INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


       We determined that the following internal controls were relevant to our audit objective:

           •   Controls to ensure that PATH and its subgrantees follow applicable laws and
               regulations with respect to the eligibility of HPRP participants and activities.

       We assessed the relevant controls identified above.

       A deficiency in internal control exists when the design or operation of a control does not
       allow management or employees, in the normal course of performing their assigned
       functions, the reasonable opportunity to prevent, detect, or correct (1) impairments to
       effectiveness or efficiency of operations, (2) misstatements in financial or performance
       informantion, or (3) violations of laws and regulations on a timely basis.


Significant Deficiency


       Based on our review, we believe that the following item is a significant deficiency:

           •   PATH did not have adequate policies and procedures in place to ensure
               compliance with HPRP requirements (see finding 1).




                                                 15
                                   APPENDIXES

Appendix A

                 SCHEDULE OF QUESTIONED COSTS

                   Recommendation            Ineligible 1/    Unsupported
                          number                                       2/
                                 1A               $8,210
                                 1B                                $21,004


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations. These costs consist of HPRP funds used to assist four participants
     who were ineligible because income and asset limits were exceeded and the participants
     were not homeless or at risk of homelessness when assisted with HPRP funds.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures. These costs consist of HPRP funds used to
     assist participants whose eligibility was not supported by adequate documentation.




                                             16
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1



Comment 2




Comment 3




                         17
Comment 4




Comment 5




Comment 6




            18
Comment 7




Comment 8




            19
Comment 9




Comment 5




Comment 10




             20
Comment 11




             21
Comment 11




             22
Comment 12




             23
                         OIG Evaluation of Auditee Comments

Comment 1   We disagree that PATH administered the program in accordance with the
            Recovery Act and other requirements. The additional documentation provided
            with its response did not support eligibility for the 13 of the 15 HPRP participants
            questioned in the report. Based on the additional documentation that was
            provided in response to our draft report, we agree that the eligibility of 2 of the 15
            HPRP participants questioned in the report were now supported. We adjusted the
            content of the report accordingly.

Comment 2   We disagree that PATH’s current policies and procedures are sufficient to ensure
            compliance with HPRP requirements. We have made several recommendations
            for HUD to require PATH to improve its HPRP policies, procedures, and
            controls. The audit resolution process will provide PATH with ample opportunity
            to present corrective actions for each recommendation to HUD.

Comment 3   We agree that 17 of the files contained income determination deficiencies. We
            further agree that 1 of the participants (participant #1587937) was ineligible for
            the program since her income exceeded 50 percent of the area median income.
            PATH will have an opportunity to provide documentation of internal policies,
            procedures, and controls to ensure that income determinations are made in
            accordance with HPRP requirements.

Comment 4   We disagree that HPRP eligibility and documentation requirements do not require
            documentation of bank statements or lack thereof. HUD’s HPRP Eligibility
            Determination and Documentation Guidance (page 20) specifically states that
            “assessment form or other documentation must…include review of current
            account balances in checking and savings accounts held by applicant household.”
            Without bank account statement(s), the case worker cannot review the account
            balances of the applicant household. Therefore, bank statements or a statement in
            the file that the applicant does not have a bank account is required to fully support
            the eligibility of the applicant. Further, a review of bank statements provides a
            clearer picture of the income and assets of the applicant household. For example,
            one of the files (participant #1587937) in our sample showed a $910 deposit on
            her bank statement that was not included as part of the participant’s income or
            assets during her initial eligibility certification. When including this additional
            deposit as household income, the participant became ineligible for the HPRP.
            Therefore, it is imperative that PATH reviews participant bank statements to
            ensure that applicants are eligible for HPRP assistance.

Comment 5   We agree that participant #1603563 is ineligible for HPRP and agree that $2,190
            will be reimbursed to HPRP. We disagree that the other three participants are
            eligible for HPRP. Please see comments 6, 7, and 8.

Comment 6   Participant #1595694: The staff affidavit form provided was not included in the
            file at the time of our review. We agree that Edison Pension income was not

                                              24
            included in the initial income determination and the supporting documentation for
            this income was not included in the file at the time of our review. It also appears
            that St. Joseph found out about the additional income after making inquiries from
            a third party, the Department of Veterans’ Affairs, two days before the written
            response was due to OIG. This illustrates the need for the agency to incorporate
            third party verification procedures into its eligibility reviews. We further agree
            that the client’s income was below 50 percent of the area median income.
            However, the client was not eligible for the program since he was not homeless or
            at risk of homelessness at the time of entry into the HPRP. The participant signed
            a lease on February 20, 2010, but did not enter the HPRP until March 23, 2010.
            As a result, the participant was housed for more than one month before entering
            the HPRP. Since the participant was not homeless or at risk of homelessness at
            program entry, he is not eligible for HPRP assistance. The fact that the client
            signed the “HUD Minimum Eligibility Criteria Prescreening Tool” does not
            preclude PATH from obtaining and reviewing other documentation to determine
            eligibility. In this case, other documentation in the file clearly showed that the
            participant was housed before entry into the HPRP. As a result, we cannot remove
            this case from the audit report.

Comment 7   Participant #1587937: We disagree with PATH and cannot remove this case from
            the audit report. The fact that the client signed a certification did not preclude
            PATH from obtaining and reviewing other documentation to determine eligibility.
            In this case, the bank statements showed that the participant had additional
            income and/or assets that were not considered when assessing her eligibility for
            the HPRP. Furthermore, we disagree that the additional income found on the
            bank statements was temporary, non-recurring, and sporadic. The three bank
            statements in the file showed various deposits from unknown sources, and
            appeared to be regular, recurring, and consistent within a three month period. St.
            Joseph did not adequately assess whether these funds were temporary, non-
            recurring, and sporadic in its case notes. As a result, the participant was not
            income eligible for the program.

            We disagree with PATH that homelessness or risk of homelessness was
            sufficiently documented. Although the “love eviction” letter was obtained a year
            after approval, we accepted it as a portion of the required documentation.
            However, HPRP Eligibility Determination and Documentation Guidance requires
            a “love eviction” letter AND a copy of the lease or other written occupancy
            agreement from the host family or friend. PATH did not provide a copy of the
            lease agreement. In place of the lease agreement, PATH provided a copy of the
            host’s utility bill from November 2010. Even if we consider the utility bill as an
            alternative form of documentation, it is still insufficient documentation since the
            eviction letter stated that the participant resided with the host in November and
            December 2009. A utility bill from November 2010 is not sufficient evidence to
            show that the host occupied the unit in November and December 2009.




                                             25
Comment 8   Participant #1595684: We disagree with PATH and cannot remove this case from
            the audit report. The fact that the client signed a certification did not preclude
            PATH from obtaining and reviewing other documentation to determine eligibility.

            PATH also provided the staff case note summary for participant #1595684 with
            its response which stated “by way of assessment it has also been determined that
            client lacks other subsequent housing options.” The case note summary was back
            dated 5 days after the participant entered the program and did not appear in the
            original case notes that were in the file. Also, at the beginning of our interview
            with PATH and its subgrantees, we were assured that all documents were
            maintained in the case files and any loose documents were requested and provided
            immediately. The back dated staff case note summaries were included for a
            majority of the unsupported participant files identified during our review. This
            gave the appearance that the case notes were not completed at the time the
            participant was approved for assistance, but were completed as a result of our
            review. Therefore, we did not accept any of these documents. PATH and its
            subgrantees can work with HUD during the audit resolution phase to resolve these
            deficiencies.

            We accepted the love eviction letter as a portion of the required documentation.
            However, HPRP Eligibility Determination and Documentation Guidance requires
            a “love eviction” letter AND a copy of the lease or other written occupancy
            agreement from the host family or friend. Since the participant stayed at her
            friend’s mother’s house, a copy of the friend’s mother’s lease agreement should
            have been obtained.

            PATH provided the “HUD Minimum Eligibility Criteria Prescreening Tool” to
            support that the client did not have other subsequent housing options and lacked
            support networks to obtain housing. The case manager signed the form on
            February 8, 2010 and the applicant signed the form on March 3, 2010. This is the
            same form that we found during our file review. After issuance of the draft audit
            report, it appears that PATH crossed out the February 8, 2010 and replaced it with
            March 3, 2010. However, postdating the form does not change the fact that it is
            unclear if support networks and subsequent housing options were assessed by the
            case manager at the time of entry in the HPRP. PATH can work with HUD
            during the audit resolution process to address this issue.

            We agree that the participant’s correct classification is prevention. However,
            reclassifying the participant does not change the fact that the file did not contain
            sufficient documentation to show that the participant was at risk of homelessness.
            Further, PATH did not provide any documentation with its response to show that
            the participant’s classification was changed to prevention. PATH can work with
            HUD during the audit resolution process to address this issue.




                                             26
Comment 9     The fact that the client signed a certification did not preclude PATH from
              obtaining and reviewing other documentation to determine HPRP eligibility.

Comment 10 Based on the additional documentation that was provided in response to our draft
           report, we agree that the eligibility of 2 of the 15 HPRP participants questioned in
           the report was supported. We adjusted the content of the report accordingly. We
           agree that participant #1601912 did not include sufficient documentation to
           support eligibility for the HPRP. However, we disagree that PATH sufficiently
           supported HPRP eligibility for the other 12 participants. Of the 15 files cited in
           the draft report, 13 did not include sufficient supporting documentation to show
           that the participants lacked financial resources at the time of program entry.
           Specifically, the files lacked bank statements or a statement that the applicant
           does not have a bank account. As a result, PATH did not fully support the
           eligibility of these participants.

Comment 11 PATH’s revised policies, procedures, and controls were not provided to OIG with
           its response. PATH can provide its revised policies, procedures, and controls to
           HUD to address these corrective actions during the audit resolution process.

Comment 12 We appreciate PATH’s assistance throughout the audit process. Implementation
           of our audit recommendations will help to ensure that HPRP participant eligibility
           is fully supported and that HPRP assistance is provided to eligible households.
           We have taken PATH’s comments into consideration and have addressed them in
           this section of the report.




                                              27
Appendix C

                                        CRITERIA
A. The Recovery Act became Public Law 11-5 on February 17, 2009. The Recovery Act
establishes the Homelessness Prevention Fund. The homelessness prevention portion of the
Recovery Act falls under Title XII, Transportation, Housing and Urban Development, and
Related Agencies.

B. HUD Federal Register Notice FR-5301-N-01 advised the public of the allocation formula and
allocation amounts, the list of grantees, and requirements for the Homelessness Prevention Fund,
hereafter referred to as the “Homelessness Prevention and Rapid Re-Housing Program (HPRP),”
under Title XII of the Recovery Act.

C. HUD Federal Register Notice FR-5307-N-01, Other Federal Requirements, Section VII, G.
Uniform Administrative Requirements, states, “All States, Territories, Urban Counties, and
Metropolitan cities receiving funds under HPRP shall be subject to the requirements of 24 CFR
[Code of Federal Regulations] part 85.”

D. HUD Federal Register Notice FR-5307-N-01, Requirements for Funding, Section IV, states,

“A. Eligible Activities
1. Financial Assistance
   a. Rental Assistance
   (1) After 3 months, if program participants receiving short-term rental assistance need
   additional financial assistance to remain housed, they must be evaluated for eligibility to
   receive up to 15 additional months of medium-term rental assistance, for a total of 18
   months. HUD requires grantees and subgrantees to certify eligibility at least once every 3
   months for all program participants receiving medium-term rental assistance.”

E. HUD Federal Register Notice FR-5307-N-01, Post-Award Process Requirements, Section V,
states,

“F. Responsibility for Grant Administration
Grantees are responsible for ensuring that HPRP amounts are administered in accordance with
the requirements of this Notice and other applicable laws. Each grantee is responsible for
ensuring that its subgrantees carry out the HPRP eligible activities in compliance with all
applicable requirements.”

F. HUD Federal Register Notice FR-5307-N-01, Post-Award Process Requirements, Section V,
states,

“I. Monitoring




                                               28
Grantees are responsible for monitoring all HPRP activities, including activities that are carried
out by a subgrantee, to ensure that the program requirements established by this Notice and any
subsequent guidance are met.”

G. HPRP Eligibility Determination and Documentation Guidance, revised March 17, 2010,
states,

“Other Subsequent Housing Options:
• Assess with applicant all other appropriate (i.e., safe, affordable, available) subsequent
   housing options.
• Verify that no other appropriate subsequent housing options are available.
• Assessment Form or Other Documentation Must:
   • Be documented by HPRP case manager or other authorized staff.
   • Include assessment summary or other statement indicating that applicant has no other
       appropriate housing options.
   • Be signed and dated by HPRP case manager or other authorized HPRP staff.
• Include assessment indicating no other subsequent housing options in participant case file.”

H. HPRP Eligibility Determination and Documentation Guidance, revised March 17, 2010,
states,

“Financial Resources and Support Networks:
• Assess with applicant all financial resources AND support networks (i.e., friends, family or
   other personal sources of financial or material support).
• Verify that applicant lacks financial resources and support networks to obtain other
   appropriate subsequent housing or remain in their housing.
• Assessment Form or Other Documentation Must:
   • Be documented by HPRP case manager or other authorized staff.
   • Include review of current account balances in checking and savings accounts held by
       applicant household.
   • Include assessment summary or other statement indicating that applicant lacks financial
       resources and support networks to obtain other appropriate subsequent housing or remain
       in their housing.
   • Be signed and dated by HPRP case manager or other authorized HPRP staff.
• Include assessment indicating insufficient financial resources and support networks in
   participant case file.”

I. HPRP Eligibility Determination and Documentation Guidance, revised March 17, 2010,
states,

“Income Definition Income is all money that goes to, or on behalf of, the head of household or
spouse (even if temporarily absent) or to any other household member. Annual income includes
the current gross income of all adult household members and unearned income attributable to a
minor (e.g. child support, TANF [Temporary Assistance for Needy Families] payments, SSI
[Supplemental Security Income] payment, and other benefits paid on behalf of a minor).


                                                29
Income Calculation After determining and documenting specific sources of income that must be
included in the income calculation for each household, grantees then calculate the household’s
annual income.

Annualizing Wages and Periodic Payments
When calculating income based on hourly, weekly or monthly payment information, add the
gross amount earned in each payment period that is documented and divide by the number of
payment periods. This provides an average wage per payment period. Depending on pay
periods used by the employer or the schedule of periodic payments, the following calculations
convert the average wage into annual income:

•   Hourly Wage, multiplied by hours worked per week, multiplied by 52 weeks.
•   Weekly Wage multiplied by 52 weeks.
•   Bi-Weekly (every other week) Wage multiplied by 26, bi-weekly periods.
•   Semi-Monthly Wage (twice a month) multiplied by 24, semi-monthly periods.
•   Monthly Wage multiplied by 12 months.

Documentation of a household’s annual income relative to Area Median Income and indicating
HPRP eligibility (50% of AMI or less) must be maintained in the participant file.”

J. HPRP Eligibility Determination and Documentation Guidance, revised March 17, 2010,
states,

“Housing Status Documentation

1. Rapid Re-Housing Documentation:
   a. Sleeping in an Emergency Shelter – Written Homeless Certification
      • Obtain signed and dated original Homeless Certification from shelter provider. A
          Homeless Certification is a standardized form that, at a minimum, contains the
          following:
          • Name of the shelter program
          • Statement verifying current shelter occupancy of HPRP applicant
          • Signed and dated by authorized shelter provider representative
      • Include Homeless Certification in HPRP participant file.
   b. Sleeping in an Emergency Shelter – Emergency shelter provider letter
      • Obtain letter from emergency shelter provider.
      • Letter must:
          • Be on shelter provider letterhead
          • Identify shelter program
          • Include statement verifying current shelter occupancy of HPRP applicant,
              including most recent entry and exit dates.
          • Be signed and dated by shelter provider.
      • Include emergency shelter provider letter in participant file.
   c. Place Not Meant for Human Habitation – Written homeless certification



                                              30
       •  Obtain signed and dated original Homeless Certification from homeless street
          outreach provider (may include other third-party referral source, such as a local law
          enforcement agency). A Homeless Certification is a standardized form that, at a
          minimum, contains the following:
          • Name of the outreach program
          • Statement verifying current living situation of HPRP applicant
          • Signed and dated by authorized outreach provider representative
      • Include Homeless Certification in HPRP participant file.
   d. Place Not Meant for Human Habitation – Self-declaration
      • Obtain signed and dated original self-declaration from applicant.
      • HPRP worker must document attempt to obtain written third party verification and
          sign self-declaration form.
      • Include self-declaration in participant file.
   e. Transitional Housing – Written homeless certification
      • Obtain signed and dated original Homeless Certification from transitional housing
          provider. A Homeless Certification is a standardized form that, at a minimum,
          contains the following:
          • Name of the Transitional housing program
          • Statement verifying current transitional housing occupancy of HPRP applicant.
         • Statement indicating the HPRP applicant is graduating from or timing out of the
              transitional housing program.
         • Statement verifying the HPRP applicant was residing in emergency shelter or
              place not meant for human habitation immediately prior to transitional housing
              admission.
         • Signed and dated by authorized transitional housing provider representative.
      • Include Homeless Certification in HPRP participant file.

2. Homelessness Prevention Eligibility Documentation
   a. Other Housing Occupied by Applicant without payment rent (including housing shared
      with friends or family)
      • Obtain copy of eviction letter (typed or handwritten) and copy of lease or other
         written occupancy agreement.
         • Eviction Letter must:
         • Identify the HPRP applicant and unit where HPRP applicant is residing.
         • Indicate that applicant must leave owner’s/renter’s housing.
         • Be signed and dated by the host owner/renter.
      • Include eviction letter and copy of lease in participant file.
   b. Other Housing Occupied by Applicant without paying rent (including housing shared
      with friends or family)
      • Obtain signed and dated original self-declaration from applicant.
      • HPRP worker must document attempt to obtain third party documentation and sign
         self-declaration form.
      • Include self-declaration in participant file.”

K. The Authority’s asset determination requirements, effective October 26, 2009, state,

                                               31
   “1) For liquid assets up to $5,000, document with self-declaration.
   2) For liquid assets worth $5,000 to $10,000, document with self-declaration statement and
   with third-party documentation. Third-party documentation includes bank statements or
   similar accounting.
   3) Applicants with liquid assets worth over $10,000 are ineligible for HPRP program.”

L. The Authority’s case management file organization requirements state,

   “Section 2: LAHSA/HACLA [Authority/Housing Authority] paperwork
   2. Certification of Program Eligibility
      i. California ID [identification] card or Drivers License or Passport (for all household
      members 18 years of age and older)
      ii. A Social Security Number
      iii. Birth Certificate(s) (for all household members 17 years of age and younger).”

M. Exhibit A of the statement of work (2) states, “PATH is responsible for verifying and
documenting the household’s eligibility. They must use the program’s eligibility screening and
standardized assessment tools to determine client eligibility.”

N. Standard provisions of PATH’s contract with the Authority, paragraph 44 (A), states, “the
Contractor, in performance of this agreement, warrants and certifies that it shall comply with all
applicable statutes, rules, regulations and orders of the United States, the State of California, the
County and City of Los Angeles. Contractor understands that failure to comply with any of the
following assurances may result in suspension, termination or reduction of grant funds, and
repayment by Contractor to LAHSA of any unlawful expenditure. Contractor further warrants
and certifies that it shall comply with new, amended, or revised laws, regulations, and/or
procedures that apply to the performance of this agreement.”

O. The memorandum of agreement between PATH and St. Joseph, Weingart, and Gateways,
paragraph 4.1(A), states that PATH will “act as a Lead Agency, and fiscal agent for this grant,
with responsibility for grant oversight, required reporting, drawdown funds from LAHSA, and
related activities.”

P. The memorandum of agreement between PATH and St. Joseph, Weingart, and Gateways,
paragraph 5.1(B), states that the partner agency will “enter and maintain accurate client
documentation including data entry into HMIS [Homeless Management Information Systems] on
a timely basis.”

Q. The memorandum of agreement between PATH and St. Joseph, Weingart, and Gateways,
paragraph 10.0, states that “the parties shall comply with all applicable federal, state and local
laws, as well as new, amended, or revised laws, regulations and/or procedures that apply to the
performance of this agreement, in particular, the regulations applicable to the American
Recovery and Reinvestment Act of 2009.”




                                                 32
Appendix D

             TABLE OF ELIGIBLITY DETERMINATION AND DOCUMENTATION DEFICIENCIES
 Household                                                                                                                                                  Recertification
                                                                                            Subsequent                                 Homeless/
identification   Unsupported   Ineligible   Financial resources   Income determination                        Support networks                               for medium-         Miscellaneous4   Total
                                                                                          housing options                        risk of homelessness
   number                                                                                                                                               term rental assistance

                                                                                   People Assisting the Homeless

  1545724        $       600                        X                                                                X                                                                             2

  1547430        $     1,140                        X                                                                                                                                              1

  1566340                                                                  X                                                                                                                       1

  1587889        $     2,090                        X                      X                                                                                                           X           3

  1588086                                                                  X                                                                                                                       1

  1593412                                                                  X                                                                                                           X           2

  1594828        $     1,065                                                                                         X                                                                 X           2

  1594934                                                                  X                                                                                                                       1

  1595684                      $   3,040                                                         X                   X                    X                                            X           4

  1598887                                                                  X                                                                                                                       1

  1602351                                                                  X                                                                                                           X           2

  1603172                                                                  X                                                                                                                       1

  1603739        $     2,240                                               X                                                              X                                                        2

  Subtotal       $     7,135   $   3,040            3                      9                     1                   3                    2                       0                    5           23



                                                                                              33
 Household                                                                                                                                                    Recertification
                                                                                             Subsequent                                  Homeless/
identification   Unsupported   Ineligible   Financial resources   Income determination                          Support networks                               for medium-         Miscellaneous4   Total
                                                                                           housing options                         risk of homelessness
   number                                                                                                                                                 term rental assistance

                                                                                         St. Joseph Center

  1559518                                                                                                                                                                                X           1

  1564940        $     1,000                        X                                                                                                                                    X           2

  1587937                      $   1,980            X                      X                                                                X                                            X           4

  1595694                      $   1,000                                   X                                                                X                                            X           3

  1597817        $     1,690                        X                                                                                                                                    X           2

  1597823        $       905                        X                      X                                                                                                             X           3

  1597920        $     2,247                        X                                                                                                                                    X           2

  1603563                      $   2,190            X                      X                                                                                                                         2

  1612984        $     3,458                        X                      X                                           X                                                                             3

  1613260                                                                                                                                                                                            0

  Subtotal       $     9,299   $   5,170            7                      5                      0                    1                    2                       0                    7           22

                                                                                  Weingart Center Association, Inc.

  1590228                                                                                                                                                                                X           1

  1601323        $     1,350                        X                      X                                                                                                             X           3

  1601912        $     1,820                        X                                                                                       X                                            X           3

  1603168        $     1,400                        X                                                                                                                                    X           2

  Subtotal       $     4,570   $       -            3                      1                      0                    0                    1                       0                    4           9



                                                                                               34
     Household                                                                                                                                                     Recertification
                                                                                                   Subsequent                                 Homeless/
    identification   Unsupported   Ineligible   Financial resources   Income determination                           Support networks                               for medium-         Miscellaneous4   Total
                                                                                                 housing options                        risk of homelessness
       number                                                                                                                                                  term rental assistance
                                                                                   Gateways Hospital and Mental Health Center

      1539272                                                                  X                                                                                                              X           2

      1601823                                                                                                                                                                                             0

      1613775                                                                  X                                                                                        X3                    X           3

      Subtotal       $        -    $       -            0                      2                        0                       0                0                       1                    2           5

        Total        $    21,004   $   8,210            13                    17                        1                       4                5                       1                   18           59




3
 After we informed PATH of this deficiency, it obtained the income documentation and recertified the participant in accordance with HPRP requirements.
4
 See Table of Miscellaneous Deficiencies for specific file deficiencies (appendix E).


                                                                                                    35
Appendix E
                                              TABLE OF MISCALLANEOUS DEFICIENCIES

                 Failed to disclose   Missing identification card, Social
 Household                                                                                                                                                                                 Lease agreement
                 additional income              Security card,
identification                                                              Missing staff affidavit form   Staff affidavit form not signed by supervisor   Misrepresented documentation     was executed         Total
                 documentation at         and/or birth certificate for
   number                                                                                                                                                                                 before client intake
                       intake         household member(s) in client file

                                                                                    People Assisting the Homeless

 1587889                                              X                                  X                                                                                                                        2

 1593412                                                                                                                        X                                                                                 1

 1594828                                                                                 X                                                                                                                        1

 1595684                                                                                                                                                                                           X              1

 1602351                                              X                                                                                                                                                           1

 Subtotal                0                            2                                  2                                      1                                       0                          1              6
                                                                                          St. Joseph's Center

 1559518                                                                                 X                                                                                                                        1

 1564940                                                                                 X                                                                                                                        1

 1587937                 X                                                                                                                                                                                        1

 1595694                 X                                                               X                                                                                                         X              3

 1597817                                                                                 X                                                                                                                        1

 1597823                                              X                                  X                                                                                                                        2

 1597920                                                                                 X                                                                                                                        1

 Subtotal                2                            1                                  6                                      0                                       0                          1              10




                                                                                                 36
 Household          Failed to disclose     Missing identification card, Social Security card,                                                                                                                  Lease agreement
identification     additional income                  and/or birth certificate for              Missing staff affidavit form   Staff affidavit form not signed by supervisor   Misrepresented documentation     was executed         Total
   number        documentation at intake         household member(s) in client file                                                                                                                           before client intake
                                                                                                     Weingart Center Association, Inc.

 1590228                                                                                                     X                                                                                                                        1

 1601323                                                                                                     X                                                                                                                        1

 1601912                                                                                                     X                                                                                                                        1

 1603168                                                                                                     X                                                                                                                        1

 Subtotal                  0                                       0                                         4                                      0                                       0                          0              4
                                                                                                Gateways Hospital and Mental Health Center

 1539272                                                                                                                                            X                                                                                 1

 1613775                                                                                                                                                                                    X                                         1

 Subtotal                  0                                       0                                         0                                      1                                       1                          0              2

   Total                   2                                       3                                        12                                      2                                       1                          2              22




                                                                                                                  37
